Audit Report-Executive Summary



Return to the USDOJ/OIG Home Page



Compliance with Standards Governing Combined DNAIndex System Activities Minnesota Bureau of CriminalApprehension Forensic Science LaboratorySt. Paul, Minnesota
GR-50-01-003March 27, 2001
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of compliance with standards governing Combined DNA Index System (CODIS) activities at the Minnesota Bureau of Criminal Apprehension Forensic Science Laboratory (Laboratory).  CODIS is a national computerized information repository maintained by the FBI that permits the storing, maintaining, tracking, and searching of DNA specimen information to facilitate the exchange of DNA information by law enforcement agencies.  Laboratories that participate in CODIS perform DNA analysis on specimens from convicted offenders or crime-scene evidence.  These laboratories use special software, provided free of charge by the FBI, to organize and manage the DNA profiles and related information.  The software also compares DNA profiles from participating laboratories and notifies the appropriate laboratories when two or more DNA profiles match.

	The DNA Identification Act of 1994 authorized CODIS and specified several standards for laboratories that contribute profiles to the FBI National DNA Index System (NDIS).  Each participating laboratory must certify that it is performing DNA analysis in compliance with the FBI standards governing laboratory operations.  Further, a Memorandum of Understanding (MOU) is enacted between the FBI and state laboratories establishing the responsibilities of each party as part of CODIS.  The MOU establishes general and specific standards that are to be followed by a laboratory in order to participate in CODIS and utilize NDIS, including the upload of DNA profiles to NDIS.

	Our audit generally covered the period from the inception of CODIS activities at the Laboratory in January 1994 through November 2000.  The overall objective of the audit was to determine the extent of the Laboratory's compliance with standards governing CODIS activities.  To address the overall objective, we considered:

the extent to which the Laboratory complied with the NDIS participation requirements of the FBI,

the extent to which the Laboratory complied with federally legislated laboratory Quality Assurance Standards (QAS) for laboratories, and 

the appropriateness of the Laboratory's DNA profiles contained in CODIS databases.

We found that the Laboratory generally complied with standards governing CODIS activities tested.  However, Laboratory personnel were unable to locate the required documentation supporting four casework profiles and two convicted offender profiles.  In addition, with respect to NDIS requirements, our review of 200 DNA profiles from the CODIS databases disclosed that five profiles were unallowable for inclusion in the databases.  In the casework database, three complete profiles and one locus within another profile matched the crime victim.  In the convicted offender database, one profile was uploaded for a person convicted of an offense that was not allowable for inclusion.  Given the sensitivity surrounding the collection and usage of DNA, we consider every instance of an inappropriate profile to be significant.

Laboratory officials have begun corrective actions to address the deficiencies related to the unallowable NDIS profiles.  Our audit results are discussed in greater detail in the Findings and Recommendations section of the report.  Appendix I discusses our audit scope and methodology.  Appendix II provides the audit criteria.  Appendix III contains general background information.  Appendix IV covers the history and status of DNA testing and CODIS use at the Laboratory.